<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         TUESDAY, MAY 17, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:18 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Lautenberg, and Collins.

                      DEPARTMENT OF TRANSPORTATION

                    Federal Railroad Administration

STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. This subcommittee will come to order.
    This morning we are holding a hearing on the President's 
budget request for the Federal Railroad Administration (FRA) 
and the budget request for the National Passenger Railroad 
Corporation (Amtrak).
    I want to welcome the Administrator of the Federal Railroad 
Administration, Mr. Joseph Szabo, and Amtrak's President and 
CEO, Mr. Joe Boardman. Thank you both for being here this 
morning, and we look forward to your testimony.
    We are now at a pivotal moment for our Nation's 
transportation policy. Over the last several years, we have 
made important investments in our rail infrastructure. But the 
recent focus in the Congress on budget cuts has created a race 
to the bottom that will make it difficult to continue those 
investments.
    Rail offers an environmentally sound and efficient 
alternative to move people and goods. It creates jobs, reduces 
the price of goods being shipped, and helps commuters across 
the country get to work.
    Our population is projected to reach 420 million by mid-
century, almost 140 million more than in 2000. If you think 
travel on our roads and at our airports are crowded today, just 
wait. Building more and wider roads will not be enough. We have 
to look to other alternatives such as passenger rail for the 
future.
    But we need to be smart about building intercity passenger 
rail in a way that works with our systems of road and aviation. 
We need to make targeted investments where it makes economic 
sense to improve mobility options in and between America's 
congested cities.
    I know communities around the country value their rail 
service. I know families in my home State of Washington deeply 
value our Amtrak service, the Cascade Line, which just set 
record ridership for the second year in a row. Which is why I 
am so disappointed that the new Republican majority in the 
House of Representatives has targeted rail transportation for 
their budget cuts.
    A year ago, we sat together in this room at our last 
hearing on rail and discussed the financial constraints of the 
fiscal year 2011 annual appropriations. A year later, we have 
instituted the largest 1-year reduction in discretionary 
spending in our Nation's history. These budget cuts have had a 
severe impact on our rail transportation programs. Capital 
grants to Amtrak were cut by $78 million and new funding for 
intercity and high-speed rail was eliminated for fiscal year 
2011.
    But many Republicans in the House say these cuts are not 
enough, and they are clamoring for more. The House version of 
the 2011 bill would have cut Amtrak by $151 million, resulting 
in furloughs for up to 1,600 employees. It also would have 
taken back more than $2.5 billion of high-speed and intercity 
rail grants.
    I agree that leaders here in Washington, DC need to tighten 
our belts and work together to get our Nation's debt under 
control. But we cannot be reckless about this. We cannot put 
together a Federal budget that will put our fragile economy and 
millions of jobs at risk. And we must continue making 
investments we know will make our country more competitive in 
the long term.
    As we develop the budget for fiscal year 2012, the bar has 
never been higher for concrete results to justify Federal 
investment. The administration used its budget request to show 
its vision of rail placed on par with other modes of 
transportation. But in today's environment, a big vision just 
will not cut it. We need to see realistic alternatives to the 
kind of slash and burn politics that have taken over our budget 
debates. I am disappointed that the budget request does not 
offer that.
    You have significant competition for very limited resources 
in the Department of Transportation (DOT). Transit systems are 
suffering across the country, shutting down services, and 
unable to make operating costs under constrained State budgets. 
The Next Generation Air Transportation System (NextGen) air 
traffic control system is costly and fundamentally necessary 
for the future of air transportation as well.
    That is why I need more from you, Mr. Szabo. I recognize 
the hard work that you and the staff at FRA have done to 
protect the agency's role as a rail safety organization and to 
build its capacity to oversee multi-billion dollar investment 
choices. It was no small task, and I commend you for your 
efforts.
    But I need you to improve transparency in FRA's work. We 
need detailed and compelling answers to basic questions about 
the awards that FRA is making to States, like what markets make 
the most sense to target rail investment and why. What will it 
cost to build? What are the benefits to investment? And what 
will it cost to operate?
    A March 2011 Government Accountability Office (GAO) report 
on the program found the criteria and evaluation of the grants 
to be sound. GAO's only recommendation was that FRA provide 
more detailed information of its record of decisions. And I 
could not agree more. As this program matures, transparency 
about the analysis and consideration of projects can only aid 
in resolving the criticisms about the integrity of the program. 
We also need to dispel some of the myths that seem to plague 
the intercity and high-speed rail program.
    There should be no question about interest from States. In 
the most recent $2.4 billion grant competition, FRA received 
more than 90 applications from 24 States, the District of 
Columbia, and Amtrak for projects along the Northeast corridor, 
with preliminary requests totaling nearly $10 billion. This 
includes the State of Wisconsin's application for $230 million. 
That was a State that previously returned an American Recovery 
and Reinvestment Act (ARRA) award.
    I support investment in intercity and high-speed rail, but 
it is now time to address the program's critics head on, and it 
is time for the program to produce and communicate tangible 
results that the Congress and American taxpayers clearly 
understand.
    I am sure Mr. Boardman can sympathize with the difficult 
position you are in, Mr. Szabo. I remember a point not too long 
ago when there were discussions about the end of Amtrak. This 
subcommittee saw a series of budget requests coming out of the 
previous administration that would have bankrupted the 
railroad. I worked hard for adequate funding for Amtrak and to 
see reforms of its financial management. The Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA) helped put 
Amtrak on the right track for success, and a new management 
team has done so much to improve the way Amtrak does its work.
    Amtrak has a new level of cooperation between its board and 
management teams. They have worked diligently to complete a new 
strategic plan, developed a system to prioritize capital 
projects, built a plan for fleet modernization, improved the 
transparency of the annual budget, and developed a 
comprehensive business plan.
    As the leadership at FRA and Amtrak face significant 
challenges in the years ahead, I cannot emphasize enough the 
importance that you administer your programs and manage their 
funding effectively and responsibly.

                           PREPARED STATEMENT

    Finally, I look forward today to discussing with you the 
security challenges that you face and what steps you are taking 
to safeguard our Nation's rail passengers. As you well know, 
there is no higher priority, and with details of terrorist 
plots against rail targets emerging from the raid on bin 
Laden's compound, I want to make sure you have the resources 
you need to protect our railways and the passengers.
    Thank you very much, and I now yield to Senator Collins for 
her opening statement.
    [The statement follows:]

               Prepared Statement of Senator Patty Murray

    This morning we will be holding a hearing on the President's budget 
request for the Federal Railroad Administration (FRA) and the budget 
request of the National Passenger Railroad Corporation (Amtrak).
    I would like to welcome the Administrator of FRA, Mr. Joseph Szabo, 
and Amtrak's president and CEO, Mr. Joe Boardman.
    Thank you for being here this morning, and I look forward to 
hearing your testimony.
    We are now at a pivotal moment for our Nation's transportation 
policy. Over the past few years, we have made important investments in 
our rail infrastructure. But the recent focus in the Congress on budget 
cuts has created a race to the bottom that will make it difficult to 
continue those investments.
    Rail offers an environmentally sound and efficient alternative to 
move people and goods. It creates jobs, reduces the price of goods 
being shipped, and helps commuters across the county get to work.
    Our population is projected to reach 420 million by mid-century, 
almost 140 million more than in 2000. If you think travel on our roads 
and at our airports is crowded today, just wait. Building more and 
wider roads won't be enough. We have to look to other alternatives such 
as passenger rail for the future.
    But we need to be smart about building intercity passenger rail in 
a way that works with our system of roads and aviation. We need to make 
targeted investments where it makes economic sense to improve mobility 
options in and between America's congested cities.
    I know communities around the country value their rail service. I 
know families in my home state of Washington deeply value our Amtrak 
service--the Cascade Line which just set record ridership for the 
second year in a row. Which is why I am so disappointed that the new 
Republican majority in the House of Representatives has targeted rail 
transportation for their budget cuts.
    A year ago, we sat together in this room at our last hearing on 
rail and discussed the financial constraints of the fiscal year 2011 
annual appropriations.
    One year later, we have instituted the largest 1-year reduction in 
discretionary spending in our Nation's history.
    These budget cuts have had a severe impact on our rail 
transportation programs. Capital grants to Amtrak were cut by $78 
million, and new funding for intercity and high speed rail was 
eliminated for fiscal year 2011.
    But many Republicans in the House say these cuts are not enough, 
and they are clamoring for more. The House version of the 2011 bill 
would have cut Amtrak by $151 million resulting in furloughs for up to 
1,600 employees. It also would have taken back over $2.5 billion of 
high speed and intercity rail grants.
    I agree that leaders in Washington, DC need to tighten our belts 
and work together to get our Nation's debt under control. But we cannot 
be reckless about this. We cannot put together a Federal budget that 
will put our fragile economy, and millions of jobs at risk.
    And we must continue making investments we know will make our 
country more competitive long-term.
    As we develop the budget for fiscal year 2012, the bar has never 
been higher for concrete results to justify Federal investment.
    The administration used its budget request to show its vision of 
rail placed on par with other modes of transportation. But in today's 
environment, a big vision just won't cut it.
    We need to see realistic alternatives to the kind of slash and burn 
politics that have taken over our budget debates. I am disappointed 
that the budget request does not offer that.
    You have significant competition for very limited resources in the 
Department of Transportation. Transit systems are suffering across the 
country shutting down services and unable to make operating costs under 
constrained state budgets. The Next Generation Air Transportation 
System air traffic control system is costly and fundamentally necessary 
for the future of air transportation as well.
    That is why I need more from you Mr. Szabo.
    I recognize the hard work you and the staff at FRA have done to 
protect the agency's role as a rail safety organization, and to build 
its capacity to oversee multi-billion dollar investment choices. This 
was no small task and I commend you for your efforts. But I need you to 
improve transparency in FRA's work.
    We need detailed and compelling answers to basic questions about 
the awards that FRA is making to States like: What markets make the 
most sense to target rail investment and why? What will it cost to 
build? What are the benefits to investment? And what will it cost to 
operate?
    A March 2011 Government Accountability Office (GAO) report on the 
program found the criteria and evaluation of the grants to be sound. 
GAO's only recommendation was that FRA provide more detailed 
information of its record of decisions.
    I could not agree more. As this program matures, transparency about 
the analysis and consideration of projects can only aid in resolving 
the criticisms about the integrity of the program. We also need to 
dispel some of the myths that seem to plague the intercity and high 
speed rail program.
    There should be no question about interest from States. In the most 
recent $2.4 billion grant competition, FRA received more than 90 
applications from 24 States, the District of Columbia, and Amtrak for 
projects along the Northeast corridor with preliminary requests 
totaling nearly $10 billion. This includes the State of Wisconsin's 
application for $230 million, a State that previously returned a 
Recovery Act award.
    I support investment in intercity and high speed rail, but it is 
now time to address the programs critics head on. And it is time for 
the program to produce and communicate tangible results that the 
Congress and the American taxpayer clearly understand.
    I am sure Mr. Boardman can sympathize with the difficult position 
you are in Mr. Szabo. I remember a point not too long ago when there 
were discussions about the end of Amtrak. This subcommittee saw a 
series of budget requests coming out of the previous administration 
that would have bankrupted the railroad.
    I worked hard for adequate funding for Amtrak, and to see reforms 
of its financial management. The Passenger Rail Investment and 
Improvement Act of 2008 helped put Amtrak on the right track for 
success, and a new management team has done so much to improve the way 
Amtrak does its work.
    Amtrak has a new level of cooperation between its board and 
management teams. They have worked diligently to: complete a new 
strategic plan, develop a system to prioritize capital projects, built 
a plan for fleet modernization, improve the transparency of the annual 
budget, and develop a comprehensive business plan.
    As the leadership at FRA and Amtrak face significant challenges in 
the year ahead, I cannot emphasize the importance that you administer 
your programs and manage their funding effectively and responsibly.
    I also look forward to discussing with you today the security 
challenges that you face and what steps you are taking to safeguard our 
Nation's rail passengers. As you well know, there is no higher 
priority, and with details of terrorist plots against rail targets 
emerging from the raid on bin Laden's compound I want to make sure you 
have the resources you need to protect our railways. Thank you.

               OPENING STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you. Good morning.
    First, let me join the chairman in welcoming Mr. Szabo and 
Mr. Boardman to this important hearing.
    I want to begin by thanking the Administrator for working 
with me, State, and county officials to preserve critical rail 
freight service in northern Maine. The 233 miles of rail line 
serving this area of my State had been proposed for 
abandonment, and that would have endangered some 1,700 jobs. 
Now, thanks to a cooperative effort, we can begin the important 
work of upgrading the tracks to preserve and actually improve 
this important freight rail service. So thank you, Mr. Szabo, 
for coming to Maine and for all that you did to make that 
possible.
    Over the past few years, FRA has begun to transform itself 
from essentially a safety oversight agency to one with the 
added responsibility of allocating and overseeing billions of 
dollars in high-speed rail and intercity passenger rail 
projects. I agree with the chairman that we need to have a 
better understanding of how money is being allocated under this 
program.
    Many, however, have questioned the basic economic 
efficiency of building a high-speed rail network in our 
country. Several States have already rejected funding for which 
their States had been awarded. With looming budget shortfalls 
in many States, the cost of building and maintaining high-speed 
rail lines is proving to be daunting. FRA has an ambitious 
national rail plan in place. However, the agency has yet to 
provide cost estimates on what it would take to build and 
maintain a new network of this magnitude.
    In March, Secretary LaHood approved the latest designated 
high-speed rail corridor, the Northeast corridor. This 
designation now allows Amtrak to apply directly for high-speed 
rail funding. Amtrak has projected that the planning and 
construction of the high-speed rail lines for the Northeast 
corridor could cost upward of $117 billion over the next 30 
years. I can only imagine the cost to complete a national 
system when the other 10 corridors are included.
    The administration's budget also calls for a significant 
change in the manner in which Amtrak is funded. Under this 
proposal, the direct appropriation to Amtrak would be 
eliminated, and it appears to force Amtrak to compete for 
funding through FRA. I am interested, as a longtime Amtrak 
supporter, in better understanding how that would work.
    With more than 28 million passengers in the last year, 
Amtrak ridership has increased, I believe, by 5.5 percent, with 
more than 137,000 passengers from March 2010 to March 2011. I 
suspect that escalating gasoline prices will push ridership 
levels even higher.
    Amtrak's Downeaster service between Portland, Maine and 
Boston has become very successful, and last August we 
celebrated the arrival of the first shipment of rail for the 
Downeaster expansion project which will expand the line from 
Portland to Freeport to Brunswick. And I appreciate the 
Administrator's participation in that celebration. This 
infrastructure project is particularly welcome in the Brunswick 
area, given the recent closure of the Brunswick Naval Air 
Station.
    Federal investment plays an important role for Amtrak, but 
in this time of budget constraints, it must be done in a 
fiscally responsible manner. I do commend Amtrak for cutting 
its debt level substantially from $4 billion in 2002 to $1.8 
billion today. But there still is a net operating loss, which 
for fiscal year 2012 is some $616 million, which is nearly $200 
million more than the fiscal year 2010 operating loss. This 
stems largely from the unprofitable long-distance routes that 
continue to prove unsuccessful from a dollars and cents 
standpoint.
    Finally, let me just add to what Chairman Murray said. Only 
a few days after our operation in Pakistan removed Osama bin 
Laden as a threat to our country, the Department of Homeland 
Security (DHS) and the Federal Bureau of Investigation (FBI) 
released an alert about rail security. This was a result of the 
intelligence that was gathered from bin Laden's compound. I was 
pleased to see the quick turnaround that intelligence gathered 
from halfway around the world was analyzed so quickly and an 
alert issued.
    Although this intelligence was not connected to any 
particular city or rail line and was dated from early last 
year, it demonstrates that mass transit remains a tempting 
target for terrorists. And of course we all know that, based on 
terrorist attacks on trains and subways in Madrid, in London, 
in Mumbai, and in Moscow. We are all thankful that there has 
not yet been a similar attack here in our country, but we 
cannot become complacent as al Qaeda or even homegrown 
terrorists could launch attacks, particularly given the warning 
that we have received from the intelligence from bin Laden's 
compound.
    With an eye toward ensuring that taxpayer dollars are used 
as efficiently as possible, we must be certain that adequate 
security measures and technology deployment are implemented 
throughout the passenger rail sector, and although that is 
primarily the responsibility of the Transportation Security 
Administration (TSA), I look forward to getting the thoughts of 
our witnesses on this issue today.

                           PREPARED STATEMENT

    Thank you, Madam Chairman.
    [The statement follows:]

              Prepared Statement of Senator Susan Collins

    Good morning, and thank you Chairman Murray for holding this 
important hearing. I welcome the Federal Railroad Administrator (FRA) 
and the National Passenger Railroad Corporation's (Amtrak) CEO to this 
hearing.
    Let me begin by thanking Administrator Szabo for his working with 
me, State, and county officials to preserve critical rail freight 
service in northern Maine. I worked closely with the Department of 
Transportation to secure $10.5 million in Federal funds on a crucial 
rail line project in my home State. The 233 miles of rail line serving 
northern Maine had been proposed for abandonment, which would have 
endangered nearly 1,700 jobs. Now we can begin the important work of 
upgrading the tracks to preserve and improve this rail service.
    Over the past few years, FRA has begun to transform itself from 
essentially a safety oversight organization to one with the added 
responsibility of allocating and overseeing billions of dollars in 
high-speed rail and intercity passenger rail projects.
    Many question the economic efficiency of building a high-speed rail 
network in the United States. Several States have already rejected 
funding for which their States have been awarded. With looming budget 
shortfalls in many States, the cost of building and maintaining high-
speed rail lines is daunting.
    FRA has an ambitious national rail plan in place; however, the 
agency has yet to provide cost estimates on what it will take to build 
and maintain a new network of this magnitude.
    In March of this year, Secretary LaHood approved the latest 
designated high-speed rail corridor, the Northeast corridor. This 
designation now allows Amtrak to apply directly for high-speed rail 
funding. Amtrak has projected that the planning and construction of the 
high-speed rail lines for the Northeast corridor to cost upward of $117 
billion over the next 30 years. I can only imagine the cost to complete 
a national system when the other 10 corridors are included. I am 
hopeful the FRA will be able to provide a cost estimate to the 
subcommittee soon.
    The administration's budget also calls for a significant change in 
how Amtrak is funded. Under the proposal, the direct appropriation to 
Amtrak would be eliminated, forcing Amtrak to compete for funding 
through FRA. I am interested in hearing the details regarding the 
potential outcomes of such a change.
    Amtrak has been operating intercity passenger train service since 
1971. With more than 28 million passengers in fiscal year 2010, 
ridership has increased over the previous years, with a 5.5-percent 
increase, more than 137,000 passengers, from March 2010 to March 2011. 
I suspect the escalating gasoline prices will push ridership levels 
even higher.
    Amtrak's Downeaster service between Portland, Maine, and Boston has 
become a success. Last August, we celebrated the arrival of the first 
shipment of rail for the Downeaster Expansion Project, which will 
expand the line from Portland to Brunswick. I appreciate Administrator 
Szabo's participation in that event. This infrastructure project is 
especially welcome in the Brunswick area, which is coping with the 
closure of the Brunswick Naval Air Station.
    Federal investment plays an important role for Amtrak, but must be 
done in a fiscally responsible manner. Amtrak has cut its debt level 
from $4 billion in 2002 to $1.8 billion today. While progress has been 
made in reducing the debt level, more needs to be done. Amtrak's net 
operating loss for fiscal year 2012 is $616 million, which is nearly 
$200 million more than fiscal year 2010's net operating loss. This 
stems from the unprofitable long distance routes that continue to prove 
unsuccessful from a business standpoint.
    Only a few days after our U.S. Navy SEALs removed Osama bin Laden 
as a threat to America, the Department of Homeland Security and the 
Federal Bureau of Investigation released an alert about rail security. 
I was pleased with the quick turnaround that intelligence gathered from 
halfway around the world was analyzed and an alert was issued.
    Though this intelligence was not connected to any particular city 
or rail line and was dated from early last year, it demonstrated that 
mass transit remains a tempting target for terrorists.
    We all remember watching in horror as the television relayed the 
devastating aftermath of the terrorist attacks on trains in Madrid in 
2004, London in 2005, Mumbai in 2006, and Moscow in 2010.
    We are thankful that there have not yet been similar attacks here 
in America, but we cannot become complacent as al Qaeda or even 
homegrown terrorists could launch attacks, particularly given the 
intelligence from bin Laden's compound.
    With an eye towards ensuring taxpayer dollars are used as 
efficiently as possible, we must make certain that adequate security 
measures and technology deployment are implemented throughout the 
passenger rail sector.
    I am looking forward to working with you Chairman Murray as well as 
Administrator Szabo and Mr. Boardman as we consider the fiscal year 
2012 budget requests.

    Senator Murray. Thank you very much.
    Senator Lautenberg.

                STATEMENT OF SENATOR FRANK R. LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman. It is good 
to be sitting with colleagues who understand the urgent need to 
get on with investing in rail systems, and Amtrak particularly, 
and improving the opportunity to get cars off the road and 
improve air quality and save money on fuel.
    Trains have helped move America's economy forward since the 
19th century when the transcontinental railroad was built--an 
engineering marvel that captured imaginations across the world. 
Almost 150 years later, railroads are still an engine of 
economic success, but the United States is no longer leading 
the way.
    I recently returned from China, which spends heavily on 
high-speed rail, investing about 9 percent of its GDP on 
infrastructure, more than three times the amount we invest here 
in the United States. China's investments are paying off. When 
I was there, I road on a train that moved faster than 200 miles 
an hour--also, I might add, without, Mr. Boardman, the rattle, 
shake, and move, hard to write as it is now on Amtrak. And I 
use it twice a week. So I do not want people to think my 
handwriting is a product of age, but rather a rough ride.
    By comparison, our fastest trains travel 150 miles an hour 
and that is under optimal conditions over very short distances.
    And to remain competitive globally, America must strengthen 
its high-speed rail network and give more people access to 
faster trains. It is going to help spark job creation as 
businesses flock to communities served by new train stations. 
And we see that. We have seen it abundantly in New Jersey, 
where we added a couple of new rail sections, and within a very 
short period, businesses will move to places convenient to 
train travel. It is better for their employees and their 
customers and their staff alike. So we found also that it 
boosted property values in the areas that were served by good 
rail service.
    Now, in our State, I am working with Amtrak to help build 
the Gateway Tunnel with an innovative project that will expand 
high-speed rail in the Northeast corridor. Each week, this 
corridor takes 30,000 cars off our highways and 243 flights out 
of the skies. I cannot help but repeat something that everybody 
can understand, and that is Penn Station in New York handles 
more passengers in a day than all three major airports that 
service our area. It is quite a fantastic thing. And more would 
come if there was room and high speed and comfort.
    I commend Amtrak on its success in the Northeast corridor. 
It demonstrates that when Americans have access to trains, they 
will gladly take them. I came down last night and the train was 
pretty much filled, and I have seen that more often than not.
    President Obama recognizes this, and the administration has 
made a $1 billion investment in improving high-speed rail in 
our region.
    Now, the President's bold vision to build a world-class 
high-speed rail network will carry America into the future. 
Faster trains give Americans a better alternative to spending 
their time stuck in traffic on our congested highways, 
absorbing the air pollution that accompanies it, and waiting in 
endless lines at the airport.
    Now, unfortunately, some say we cannot afford an investment 
in high-speed rail right now, and they are determined to slam 
the brakes on our progress. But I say we cannot afford the cuts 
proposed in the House budget without imperiling a return to a 
more robust economy. It is part of the plan and we must do it. 
This short-sighted view ignores great transportation 
achievements of the past, like the George Washington Bridge 
built during the Great Depression. It created jobs, but also 
created a travel opportunity between New York and New Jersey 
and principal highways going north and south.
    So, Madam Chairman, I look forward to hearing from today's 
witnesses about how we can reclaim our role as the world's 
leader in rail and get our economy back on track. Thank you.
    Senator Murray. Thank you very much.
    We will now turn to our witnesses for their opening 
statement. Mr. Szabo, we will begin with you.

               SUMMARY STATEMENT OF HON. JOSEPH C. SZABO

    Mr. Szabo. Thank you, Chairwoman Murray, Ranking Member 
Collins, Senator Lautenberg, and members of the subcommittee. I 
am honored to appear before you today on behalf of President 
Obama and Secretary LaHood to discuss the President's proposed 
fiscal year 2012 budget for the Federal Railroad 
Administration.
    By 2050, the U.S. Census Bureau projects a population 
increase of an additional 100 million people. To put that in 
context, that is like adding the population of another New 
York, California, Florida, and Texas combined.
    To plan for the future, this budget proposal details how 
strategic investments will build an innovative, national rail 
network to move people and goods safely with speed and 
flexibility.
    Railroad safety remains a top priority, and I am pleased to 
report that the industry's safety record for 2010 achieved all-
time lows in the number of accidents per million train miles 
traveled. And this is a direct result of FRA's multifaceted 
approach to bringing about change, taking one of the most 
dangerous industries and making it now one of the safest.
    To continue this progress, the fiscal year 2012 budget 
proposes $223 million for Safety and Operations. With more 
freight and passengers moving as the economy improves, this 
funding enables FRA to remain squarely focused on new and 
comprehensive safety strategies while building a national rail 
network.
    And while we remain squarely focused on safety, the 
momentum and groundwork for the high-speed intercity passenger 
rail program continues. Over the past year, FRA has obligated 
more than $5.8 billion from ARRA and annual appropriations, 
bringing dollars to States and real projects across the country 
and putting Americans to work.
    With the help of FRA, States have entered into 
groundbreaking agreements with freight rail partners on four 
major corridors that assure that Federal investments will 
produce quantifiable performance outcomes for passenger rail 
while preserving and improving a world class freight rail 
system.
    The demand is stronger than ever by States competing to get 
into the rail business. Just last week, we announced $2 billion 
in high-speed rail awards for 15 States and Amtrak. The 
competition was tough. Twenty-four States submitted more than 
90 applications requesting nearly $10 billion. And for our 
fiscal year 2010 funding request, FRA received 132 applications 
from 32 States. And since the award selections in October, we 
have been busy obligating these projects. Response to the 
program has been overwhelming.
    And it is no wonder that States are clamoring to be a part 
of the rail movement. Gas prices are on the rise, and future 
population growth figures are skyrocketing. We know that our 
existing air and roadway systems are among the best in the 
world, but congestion and traffic threaten to stymie the 
American economy and our productivity. We have to provide 
Americans with new and enhanced mobility options.
    The President's budget strategically invests $8.2 billion 
in fiscal year 2012 for the continued development of high-speed 
intercity passenger rail, as part of the bold, $53 billion, 6-
year transportation proposal. And $8.2 billion will lay the 
foundation for the passenger railways of the future, 
consolidating passenger rail into two accounts through the 
Transportation Trust Fund: Network Development and System 
Preservation. The budget proposal places passenger rail on 
equal footing with other surface transportation programs. 
Funding for Amtrak and new passenger rail corridors keep us on 
track, providing 80 percent of Americans access to a high-speed 
rail network within the next 25 years.
    Our goal is to create a balanced transportation system, 
with highways, transit, and aviation enhanced with high-speed 
intercity passenger rail. Developing a passenger rail network 
requires a long-term commitment at both the Federal and State 
levels to keep the American people moving and communities 
connected.
    The strategic investments in rail that were made in 2009 
and 2010 are paying off. We are enhancing the global economic 
competitiveness of America, boosting domestic manufacturing, 
reducing reliance on imported oil, and creating a new base of 
highly skilled, well-paying jobs. And we are establishing a 
pipeline of rail projects for future corridor development.

                           PREPARED STATEMENT

    For decades, investments in transportation have connected 
cities and States from coast to coast and served as a 
foundation for economic growth and our prosperity. By providing 
a long-term commitment for high-speed intercity passenger rail 
today, we are taking a bold and definitive approach to 
addressing the Nation's near- and long-term passenger and 
freight mobility demands, and ensuring that future generations 
will have access to the high quality, safe, and efficient rail 
transportation for decades to come.
    I look forward to your questions.
    [The statement follows:]

               Prepared Statement of Hon. Joseph C. Szabo

    Chairman Murray, Ranking Member Collins, and members of the 
subcommittee, I am honored to appear before you today on behalf of 
President Obama and Secretary LaHood to discuss the administration's 
fiscal year 2012 budget proposal for the Federal Railroad 
Administration (FRA).
    The President is requesting a bold new 6-year, $53 billion rail 
plan that will bring high-speed rail in line with our other surface 
modes in order to meet the Nation's transportation needs today and into 
the future. In fiscal year 2012, $8.2 billion sets the framework for 
building networks and infrastructure to realize the President's vision 
of providing 80 percent of Americans with access to an intercity 
passenger rail network featuring high-speed service within 25 years 
while continuing to make the necessary investments in FRA's highest 
priority--assuring the safety of all aspects of our rail industry--
freight, commuter, traditional intercity passenger service as well as 
high-speed rail.
    While safety is our highest priority, the President's budget 
proposal will provide critical new travel options for Americans. But it 
must also be the right level of investment for the market needs which 
will serve to underwrite the future of true American high-speed rail.

                         INVESTING IN TOMORROW

    The President, in his State of the Union Address said:

``The future is ours to win. But to get there, we can't just stand 
still . . . Sustaining the American Dream has never been about standing 
pat. It has required each generation to sacrifice, and struggle, and 
meet the demands of a new age. Now it is our turn.''

    The administration didn't come up with our high-speed rail 
initiative overnight. National, State, and local high-speed rail 
interest and planning has permeated throughout U.S. transportation 
history. Capitalizing on the timing and decades of work, this 
administration leveraged the American Recovery and Reinvestment Act of 
2009 (ARRA) funding as a way to provide a beginning--a ``down-payment'' 
on a new and needed transportation alternative while also putting 
people to work.

                            MOBILITY CHOICES

    Our existing air and roadway systems are among the best in the 
world, but congestion and highway traffic are threatening to stymie the 
American economy and our productivity. High-speed rail will help 
complement today's systems and keep goods and people moving. Americans 
experience an average delay of 36 hours every year while idling in 
highway traffic and this number rises to 51 hours in the largest 
metropolitan areas.\1\ Aviation congestion, meanwhile, has also risen 
in recent years, with an estimated annual economic impact of $10 
billion according to the Air Transport Association.\2\
---------------------------------------------------------------------------
    \1\ Texas Transportation Institute, ``2009 Annual Urban Mobility 
Report''.
    \2\ Air Transport Association, ``Annual and Per-Minute Cost of 
Delays to U.S. Airlines''.
---------------------------------------------------------------------------
    The Nation expects a nearly 25-percent increase in the population 
(to 390 million) \3\ by 2035. The U.S. Census Bureau projects growth 
will be concentrated in a small number of growing and merging areas of 
urbanization known as mega-regions. All of this new growth, and the 
ensuing economic output, will need development of new and enhanced 
mobility options. A more comprehensive and balanced transportation 
system of highways, transit, and aviation assets would be strengthened 
by high-speed intercity passenger rail, which can be effective in 
meeting the intercity travel demands in such regions.
---------------------------------------------------------------------------
    \3\ Table 1.--Projections of the Population and Components of 
Change for the United States: 2010 to 2050, Population Division, U.S. 
Census Bureau, Release Date: August 14, 2008.
---------------------------------------------------------------------------
    Investments in rail will ease demand for Federal and State highway 
and aviation funding and create balanced public funding options. By 
providing an alternative to regional flights that clog runways and 
airspace, high-speed rail investment will permit the aviation industry 
to focus on the market segment of higher yielding long-haul flights.

                           INVESTMENT PROFILE

    Developing a comprehensive intercity passenger rail network will 
require a long-term commitment by Federal, State, and local as well as 
private partners. ARRA's down-payment on high-speed intercity passenger 
rail, followed by fiscal year 2010 appropriations, emphasized strategic 
investments that will yield tangible benefits to rail infrastructure. 
We're starting to see a ``pipeline'' of projects for future corridor 
development and the beginnings of a domestic market for world-class 
rail engineering, equipment, and technology development. Since the 
jump-start of ARRA funding, FRA has ramped up its high-speed rail team, 
hammered out service agreements with freight railroads and forged 
partnerships with State and local stakeholders. To date, we have 
entered into 49 cooperative agreements obligating nearly $5.8 billion.
    To further enhance this progress, the fiscal year 2012 budget 
proposes $53 billion over 6 years to continue construction of a high-
speed rail network. It places passenger rail on equal footing with 
other surface transportation programs and includes funding for long-
deferred capital investments in Amtrak's aging equipment and 
infrastructure, state of good repair, and systems performance 
reliability. It envisions the construction of new ``core express'', 
``regional'', and ``emerging'' corridors which will be backed by 
careful cost-benefit analysis. The proposal offers high-speed rail 
where it makes sense, cost-justified, and at the right level of 
investment for the market needs. It will underwrite the future of true 
American high-speed rail.
    To effectively accomplish this going forward, the right 
organizational and administrative construct is required. The fiscal 
year 2012 President's budget consolidates passenger rail programs into 
two accounts to ensure comprehensive and effective management of high-
speed rail. Through the proposed rail account of the new Transportation 
Trust Fund, Network Development and System Preservation focus on two 
main business lines: building high-speed rail and operating/maintaining 
existing and new assets and infrastructure. Included in the request is 
$5.5 billion from the President's ``up-front'' $50 billion call for 
transportation investment, which will begin corridor development and 
address existing long-standing backlog such as Amtrak's aging assets 
and rail stations inaccessible to those with disabilities.
    Just recently, we received more than 90 applications from 24 
States, the District of Columbia, and Amtrak totaling nearly $10 
billion for competition for $2 billion available for high-speed rail 
projects. The demand to participate transcended political lines because 
communities will grow, manufacturing activity will expand, and mobility 
will improve. Not unlike the bold step under President Eisenhower, the 
development of our interstate highway system needed significant 
spending even during the recessionary period of the late 1950s. Our 
leaders recognized this spending was simply needed and worth it, not 
only for the many transportation benefits but also for the creation of 
industries, communities and jobs of the future.

                          CREATING JOBS TODAY

    While the President's vision describes a goal for tomorrow, it's 
also about creating jobs today. We're seeing real results from existing 
high-speed and intercity passenger rail projects. For example, through 
ARRA investments, State and freight rail working together, the Union 
Pacific Railroad's modern Track Renewal Train is pulling up antiquated 
wooden crossties and replacing them with modern concrete crossties, all 
in one step. This will permit increased passenger train operations to 
110 miles-per-hour; and lay the groundwork for frequent service with 
competitive trip times in the Chicago to St. Louis corridor. The Union 
Pacific estimates that it will have 700 employees working on the 
project this year. In addition, during fiscal year 2011, we will see 
construction activity from Amtrak's Northeast corridor to the Pacific 
Northwest, which will create hundreds of rail-related jobs.
    Similar to the Interstate System plan in the 1950s, we haven't 
finalized all the lines on the map or precisely calculated the costs, 
but we know a major undertaking like this will have a ripple effect on 
job creation across the Nation. The impact extends beyond the regional 
transportation and economic development benefits. The rail being laid 
today is coming from places like Pueblo, Colorado; Columbia City, 
Indiana; and Steelton, Pennsylvania. The crossties are coming from 
places like Tucson, Arizona; Durham, Connecticut; and Sciotoville, 
Ohio. Specialized track work such as turnouts and crossovers are coming 
from places like Birmingham, Alabama; Newport, Arizona; Newton, Kansas; 
Knoxville, Tennessee; Sherman, Texas; and Vancouver, Washington. 
Ballast is coming from places like Sprague, Washington; Westbrook, 
Maine; Gad's Hill, and Iron Mountain, Missouri. Most of these places 
are not likely to see high-speed passenger rail service in the near 
future. However, they are seeing the positive employment impacts of 
high-speed rail development today.

                           ECONOMIC BENEFITS

    While mobility is essential to our current and future economic well 
being, high-speed rail offers the potential for further long-term 
economic benefits. Throughout our history, transportation has served as 
a catalyst in developing the new industries and businesses that make 
our economy the envy of the world. The 19th century railroad 
investments were a catalyst for the creation of a steel industry. The 
development of improved highways served as a catalyst for the 
development of the automotive industry. The development of airports and 
aids to navigation has served as a catalyst for advancements in the 
civilian aircraft industry.
    High-speed intercity passenger rail offers an opportunity for 
equipment, component, and supporting manufacturers to build a robust 
and sustainable passenger rail system. Once ``Made in America'' meant 
the standard for the world in passenger rail transportation. The 
President, Secretary LaHood, and I are committed to re-invigorating 
that standard through implementation of a strong ``Buy America'' policy 
that will ensure that whenever possible, American companies will 
provide the materials and equipment we need to keep our rail lines up 
and running.
    Companies from across the Nation--from New York to California--are 
starting up, expanding or leveraging work already begun to compete in 
terms of quality, price, and U.S. content. U.S. companies are 
applauding that our program makes domestic production a competitive 
advantage. The manufacturer of Amtrak's new single-level long-distance 
coaches committed to exceeding minimum U.S. content requirements and 
moved functions in-house that were previously performed offshore. The 
Canadian manufacturer of Amtrak's Acela rail cars in the 1990s opened a 
factory in New York State that can do work once done beyond our 
borders. But the key to building a sustainable domestic industry, an 
industry where companies strategically plan, develop new products, and 
create stable, long-term employment with good salaries and benefits, is 
a sufficiently large and reliable domestic market demand. Our proposal 
provides the stability needed to grow the industry and will provide 
U.S. companies manufacturing opportunities.
    Rail investments also influence our communities and invite new 
development and economic activity. Washington's Union Station was once 
in a depressed part of town and the station was in ruins. With 
determination and vision, our predecessors restored the rail station as 
an intermodal hub linking high-speed rail service on the Northeast 
corridor to Washington's regional and local transportation. Union 
Station attracts over 32 million visitors per year and its intermodal 
connections attracted new companies like Sirius XM, Kaiser Permanente, 
and CNN who were eager for good workers. Creating an opportunity for 
corporate development and investment goes beyond the rail platform and 
station to include surrounding localities.
    High-speed rail not only benefits larger cities but also small, 
rural communities. The Northern New England Rail Passenger Authority 
(NNEPRA) has been tracking the influence of intercity passenger rail 
service on the communities served by Amtrak's Downeaster. The service 
began 10 years ago and NNEPRA estimates that more than $350 million in 
public/private development projects have been completed or are underway 
in Maine, creating jobs, revitalizing downtowns, and generating new 
revenues for the surrounding areas. Within weeks of DOT's announcement 
that it was allocating funds for the expansion of the service, private 
developers began to invest near rail stations in Freeport and 
Brunswick. Many cities and towns contact us every week looking to 
compete and bring high-speed rail and those benefits to their area.

                    ENERGY AND ENVIRONMENT BENEFITS

    High-speed intercity passenger rail uses less energy, often from 
cleaner sources than other transportation alternatives. The U.S. 
transportation sector consumes 13.8 million barrels of oil every day 
and consumption per capita is nearly twice that of the European 
Union.\4\ Imported oil accounts for two-thirds of U.S. demand and has 
substantial implications for our economy and national security--each 
day, the United States spends $1 billion from foreign countries.\5\ 
More efficient than airplanes and vehicles, high-speed rail offers the 
opportunity to power intercity transportation with domestically 
generated electricity. Instead of travelers spending more money for 
higher cost imported fuel, we can keep the money here and help 
strengthen our economy.
---------------------------------------------------------------------------
    \4\ CIA World Factbook.
    \5\ ``Remarks by the President to the Nation on the BP Oil Spill.'' 
15 June 2010.
---------------------------------------------------------------------------
    Fuel savings will result in a healthier environment by reducing 
emissions. The United States emitted 14 percent more greenhouse gases 
in 2008 than it did in 1990 with nearly one-third of emissions from the 
transportation sector. There's a concern growing about climate change 
and other air pollutants. Our vehicles, aircraft, and rail will need to 
reduce emissions in the years ahead. Rail can help our economy and our 
environment, with its greater efficiency and the opportunity it affords 
to use domestically produced, renewable, or low-emissions electricity.

                                 AMTRAK

    For the last several years, Amtrak's Northeast corridor service has 
been a real world demonstration of the potential for high-speed rail in 
the United States. Amtrak increased ridership on its high-speed 
service--Acela--from 2.5 million trips in 2005 to 3.2 million in 2010. 
The Northeast corridor carried more than 10.3 million passenger trips 
in 2010. The Northeast regional economy wouldn't be the engine it is 
today without passenger rail. Just last month, Amtrak posted its 18th 
consecutive month of year-over-year increased ridership and it is on 
target for another record year. In the first half of the fiscal year, 
Amtrak's ridership is up 5.9 percent, while its yields are up 5.5 
percent--more than twice the rate of inflation.
    Amtrak and its new management have made many positive changes to 
maintain an effective and reliable train system. However, years of 
underinvestment and cyclical Federal support have challenged Amtrak's 
ability to provide service levels the public expects. This is evident 
in antiquated bridges (some old as 100 years) and main power systems 
(going on 80 years of service) on the Northeast corridor. Rail stations 
need improvement and accessibility to comply with ADA requirements, and 
Amtrak's aging fleet is due for major replacement.
    The fiscal year 2012 budget proposes stable and sufficient 
resources to operate and maintain a safe and reliable rail system for 
the American public. First, we recognize that Amtrak provides important 
national connectivity and backbone systems such as ticket reservations 
upon which intercity passenger rail depends. The proposal provides 
dedicated funds to Amtrak for the near-term to continue foundational 
systems as well as develop integrated and improved high-speed and 
intercity passenger rail service.
    Further, Amtrak's vital special services such as custodians of the 
intercity passenger rail equipment fleet and other publicly controlled 
assets and infrastructure require directed funds in the short-term. 
However, as ownership of rail equipment for Regional Express and 
Emerging High-Speed Rail Corridors mature and develop, that approach 
will be revisited and other service providers will compete for funds. 
In the area of new corridor development, Amtrak would be the lone 
recipient or partner with States. The key for Amtrak is that the 
competition be based upon a ``level playing field'' and that the 
corporation continues its progress in improving efficiency and 
responsiveness which will be essential in a competitive environment.
    The fiscal year 2012 proposal builds on the paradigm of Federal 
rail investment created by PRIIA. Historically Federal investment in 
intercity passenger rail was a bilateral arrangement--FRA grants to 
Amtrak. Going forward, many different arrangements would be available 
to develop and operate intercity passenger rail. There will also be an 
important role for private capital investment as well. The transition 
has begun with the funding provided in ARRA and in fiscal year 2010. I 
am confident that Amtrak will continue to play an important and growing 
role in America's emerging high-speed intercity passenger rail program.

                                 SAFETY

    FRA's backbone mission is safety. Together with the rail industry, 
FRA has made significant progress in changing what was once one of the 
most dangerous sectors to one of the safest. An independent study 
conducted as part of the fiscal year 2009 Annual Enforcement Report 
states that ``the safety program as a whole, including the effects of 
civil penalties, is highly effective.'' However, when rail accidents do 
occur, they carry a high probability of risk to lives and communities. 
The budget proposes safety funding and programs that build upon 
existing approaches to prevent accidents and reduce potential injuries.
    The most significant element of our new strategies is the risk 
reduction program (RRP). We are supplementing our existing regulatory 
and inspection system with a new focus on the precursors of accidents 
and incidents. FRA's RRP is an FRA-led industry wide initiative which 
builds strong safety cultures by addressing systemic contributive 
factors using ``upstream'' predictive data. This system is most 
effective with a range of programs such as confidential close call 
reporting system, peer-to-peer coaching, management development systems 
and collision hazard analysis currently in place on some commuter 
railroads.
    FRA's Office of Safety and Office of Research and Development have 
been collaborating on the development of new metrics, such as the Track 
Quality Index, that address trends in safety-sensitive infrastructure 
and equipment and identifies those precursors needing monitoring. Those 
offices are also developing technologies such as the autonomous track 
geometry system, the joint bar inspection system, and guided wave rail 
flaw detection that will permit FRA and the rail industry to more 
closely monitor infrastructure and equipment to prevent accidents 
before they occur.

                             MOVING FORWARD

    The new strategies that FRA is pursuing require not just more 
resources but different skills and abilities to build upon our 
traditional safety program. Our staffing request focuses on additional 
safety and safety-related research and development personnel. 
Specifically, it includes an increase of 83 full-time equivalents 
including 24 for the high-speed rail program. The proposal also gives 
FRA the authority to use program funds for FRA's costs related project 
implementation and oversight. Ultimately, FRA's assistance programs 
will closely mirror familiar Federal Highway and Federal Transit 
Administration programs. These resources are essential for FRA to 
continue successful implementation of our new mission.
    Despite the challenges FRA has faced, I am proud of the job FRA has 
done. The Government Accountability Office's (GAO) recent report: 
Intercity Passenger Rail: Recording Clearer Reasons for Award Decisions 
Would Improve Otherwise Good Grantmaking Practices praised FRA's merit-
based practices in identifying projects and awarding grants and 
particularly called FRA a top agency for communicating critical 
information on the competitive high-speed intercity passenger rail 
program. Conversely, GAO's suggestions for improvement will be 
incorporated into the grant making process. Coming from an independent 
source such as GAO, I still see this as validation of the efforts of a 
small agency that just 5 years ago had only $30 million in 
discretionary grants.

                 WHERE WE'RE HEADED--WINNING THE FUTURE

    The President's fiscal year 2012 budget and bold vision to invest 
in high-speed rail is important not only for folks hoping for another 
option, but for our children and their children who will need one. One 
of the projects funded by ARRA is the replacement of a nearly 100-year-
old bridge over the Pattagansett River near East Lyme, Connecticut. It 
has been a vital link for Amtrak and travelers through seven wars, 19 
Presidents, and numerous cycles of our economy. That bridge was an 
investment by our great grandparents' generation and helped America 
develop the greatest economy and transportation system in the world.
    The challenge today is for us to recognize--as our forefathers 
did--that even in uncertain times, we must invest in our infrastructure 
to ensure we meet the transportation needs of the future. A long-term 
commitment to developing high-speed intercity passenger rail will pay 
significant dividends for our children and grand-children. We must be 
willing to make this investment to win the future.

    Senator Murray. Thank you very much.
    Mr. Boardman.

            NATIONAL RAILROAD PASSENGER CORPORATION (AMTRAK)

STATEMENT OF HON. JOSEPH H. BOARDMAN, PRESIDENT AND 
            CHIEF EXECUTIVE OFFICER
ACCOMPANIED BY JOHN O'CONNOR, VICE PRESIDENT AND CHIEF OF POLICE, 
            AMTRAK POLICE DEPARTMENT
    Mr. Boardman. Thank you. Good morning, Senator Murray, 
Senator Collins, and Senator Lautenberg.
    Before I get into the 2012 funding need, I would like to 
take just a second to discuss some of the revelations that have 
come in the wake of Osama bin Laden's demise.
    We have worked closely with both domestic security 
organizations and foreign rail organizations. The European 
network of Railway Police Forces (RAILPOL), for example, has 
been created, and I have our Vice President and Chief of Police 
John O'Connor with us today, who has taken an active role in 
making sure that we are keeping an eye on what is happening not 
only in this country, but in Europe, in terms of the way that 
this is being investigated.
    We are most concerned with the possibility of an external 
attack on a train at a vulnerable point, whether that be a 
bridge or a tunnel, and we are seeking as best we can, in 
cooperation with DHS and TSA, additional support to find 
warning and detection systems that would help us in the event 
of such an attack.
    The Administrator talked a little bit about his program, 
and there is a large part of his program that involves 
development. And if you look at some of the technology that is 
available today, adopting that, extending it, and using it for 
the future, we think, has real possibilities for us.
    I think it is important to really think about what we are 
really threatened with, rather than some of the other ideas 
that have been expressed. And what we are really looking at 
today is ridership that has increased month-over-month for the 
last 18 months in Amtrak. We see people flocking back to using 
rail. And as Senator Lautenberg talked about, there is standing 
room only in many, many of our trains today. Our ridership has 
grown 36 percent since 2000, and last week the DOT awarded us a 
$450 million grant to improve speeds on our Northeast corridor, 
a line through New Jersey. And the Senator already asked me 
this morning when that was going to be done, and I do not have 
that schedule yet, Senator. That improvement will be one of the 
steps in recognizing for the future our vision for a greatly 
improved Northeast corridor service that was talked about this 
morning.
    For fiscal year 2012, Amtrak has asked for a total of $2.22 
billion, divided into $616 million to support our operations, 
$1.285 billion for capital programs, and $271 million for debt 
service, as we are working hard on debt, as you have already 
recognized. With the exception of about $50 million in funding 
we requested for the Northeast corridor Gateway Project in New 
York, and the additional debt service money to buy out leases, 
these are levels that are authorized by the Passenger Rail 
Investment and Improvement Act of 2008.
    We have detailed many of our major programs in the written 
portion of our testimony, and we have just updated the fleet 
plan. We placed orders for new electric locomotives and single-
level long-distance cars. We need to add capacity to the Acela 
services; we expect to be able to add 40 cars to the existing 
20 Acela passenger service vehicles. This investment will 
generate for us about $100 million of additional revenue once 
we deploy it. We plan to begin that procurement with these cars 
in fiscal year 2012.
    Amtrak has focused heavily on controlling its costs. We 
have cut our debt level from $4 billion to $1.8 billion, as has 
already been mentioned. We are the most cost-efficient 
passenger railroad in America, covering 85 percent of our total 
operating costs from revenue, of which 76 percent is generated 
through ticket sales.
    We are improving how we are doing our work with point-of-
sale solutions on our trains, with e-ticketing, with Wi-Fi on 
the Acela trains, which in and of itself increased an 
incremental 1.5 percent improvement in our ridership, 
translating into 47,000 riders and $6.5 million of incremental 
revenues in 2011.

                           PREPARED STATEMENT

    I understand, as Amtrak understands, there will be 
difficult fiscal choices for you to make. As you know, 
continued capital funding will allow us to reduce or eliminate 
problems that translate into increased operating expenses. Over 
the long term, an effective capital investment program can 
translate into permanent reductions in expenses. I also look 
forward to questions.
    [The statement follows:]

             Prepared Statement of Hon. Joseph H. Boardman

    Good morning, Chairman Murray, Ranking Member Collins, and members 
of the subcommittee. On behalf of the Amtrak Board of Directors and the 
men and women of Amtrak, I'm pleased to have the opportunity to come 
before the subcommittee today to discuss our fiscal year 2012 funding 
request. To start with, I have some very good news to report: Amtrak 
has just finished 18 straight months of year-over-year ridership 
growth. This was our best April ever, and we're on track to set another 
annual ridership record. This is part of a long-term trend we've seen 
since 2000 of growth in demand for our services, and many of our 
individual services are likewise setting records and seeing similar 
trends of growth--the Downeaster service in Maine, for example, just 
finished its best April ever in terms of ridership and revenue.
    Systemwide, our ridership has grown more than 36 percent since 
2000, and I expect that trend to continue--and if gas prices continue 
to rise, to accelerate; our only restriction will be the available 
capacity. Last year, we carried more than 28.7 million people. Of 
those, about 10.4 million rode Northeast corridor (NEC) trains, and 
13.8 million rode other short-distance corridor, many of them in 
California, whose three corridor services carried about 5.2 million 
riders. Our 15 long-distance trains, which carried more than 4.5 
million riders, are the only Amtrak service in 23 States and at 223 of 
the 516 stations we serve. They provide an important service to 
passengers with disabilities who travel on long-distance trains at a 
proportionally higher rate than the other services; 42 percent of the 
passengers with disabilities who took an Amtrak train in 2010 traveled 
on one of those 15 trains.
    Amtrak plays an important role as a provider of rural 
transportation services, which has become increasingly important as bus 
and air services to rural areas contract. The Bureau of Transportation 
Statistics estimates that almost 16 percent of Americans enjoy access 
to only 1 of 3 intercity transportation modes (train, bus, or 
airplane), and bus routes today serve 12 percent fewer rural residents 
than they did in 2005. About 152 of Amtrak's stations serve rural 
communities, many of which have no intercity bus service.
    To sustain this system, Amtrak has asked for a total of $2.22 
billion in fiscal year 2012, divided into $616 million to support our 
operations, $1.285 billion for capital programs, and $271 million for 
debt service. With the exception of the $50 million in funding we've 
requested for our NEC Gateway project in New York, and some additional 
debt service money to buy out leases, these levels are those authorized 
by the Passenger Rail Investment and Improvement Act of 2008. The 
administration has proposed a considerably higher number, totaling more 
than $53 billion over a 6-year period. As Secretary LaHood recently 
testified, this money would both preserve the existing system and 
continue construction on a national high-speed rail network. Their plan 
will level the playing field, funding high-speed rail in a manner 
similar to the way other modes such as aviation and highways have been 
funded for decades. The administration's proposal will simultaneously 
help to fund Amtrak's state-of-good-repair needs, and it will go a long 
way toward advancing the goal of making passenger rail more accessible 
to more Americans.
    These are major needs, and Amtrak strongly supports this effort to 
invest in transportation modes that provide Americans alternatives to 
congested highways and airports. We detailed some of the major programs 
in our grant request, which we submitted in February. Foremost among 
the needs we have identified are rolling stock replacement and capacity 
development. We have just published an update to our fleet plan, which 
identifies some of our major equipment needs, and we have placed orders 
for new electric locomotives and single level, long-distance cars to 
replace the aging Heritage Fleet that we inherited from predecessor 
railroads.
    As an interim measure, we have used American Recovery and 
Reinvestment Act of 2009 funding wisely to return stored cars and 
diesel locomotives to service. A total of about 60 Amfleet cars (enough 
for 11 NEC trains) and 15 locomotives, as well as 21 Superliner cars, 
were put back to work after rebuilding at our shops in Bear, Delaware 
and Beech Grove, Indiana. This equipment has eased the strain on a 
fleet that's aging and hard-run and has helped us to expand capacity on 
our heavily patronized Northeast Regional trains. We would like to 
expand capacity on our Acela Express trains, but to do so will require 
the addition of 40 cars to the fleet. We plan to begin the procurement 
of these cars in fiscal year 2012.
    Amtrak is also working to realize our vision for high-speed rail in 
the Northeast. We recently unveiled our vision for ``next-generation'' 
high-speed rail in the NEC, and we announced our plans for the ``NEC 
Gateway'' into New York in January. Our grant request included a 
specific request for $50 million in funding to begin this project, and 
we are also actively pursuing High-Speed Intercity Passenger Rail 
Program (HSIPR) grant funding from the Federal Railroad Administration 
for components of the project. We are working closely with States to 
pursue projects that will improve existing services. The States of 
Washington and Oregon have received about $590 million in HSIPR grant 
funding to improve the Cascades route, lay the groundwork for faster 
service, and make immediate improvements in service reliability, route 
capacity, on-time performance, and trip times. Maine has received a $35 
million grant to restore 30 miles of track and extend the Downeaster 
service to Brunswick and Freeport. In addition to these ongoing 
projects, Amtrak has partnered with Maine, Oregon, and Washington, 
among others, to seek additional grant funding under the HSIPR program. 
Last month, we supported applications for $62 million to add double 
track on portions of the Downeaster route. We also supported a series 
of applications for more than $105 million in funding to replace aging 
bridges, eliminate bottlenecks, and add equipment to the Cascades 
service.
    Amtrak is focusing heavily on cost-effectiveness, and projects like 
these will sustain the system, reduce operating costs, and generate 
additional revenues. We've made significant progress in paying down our 
debt, cutting our debt level in half, from $4 billion in 2002 to $1.8 
billion today. Amtrak reduced its debt by $850 million in fiscal year 
2010 alone, and we have addressed recent audit findings to improve our 
financial controls and accountability. We're in the process of 
launching a new financial accounting system, and I expect that this 
will help us greatly in our ongoing efforts to improve accountability 
and management procedures.
    Amtrak is already the most cost-efficient passenger railroad in 
America, generating 76 percent of its operating need out of the farebox 
and covering more than 85 percent of its total operating costs from 
revenues. We are working constantly to find solutions that will 
generate more revenue from each person-hour worked. For example, we are 
developing electronic ``point-of-sale'' solutions for our on-board 
environment that will replace the time-consuming and costly process of 
manually tracking stock in every cafe and dining car on every trip with 
a system that will automatically track sales and allow our workforce to 
focus instead on selling food. Similarly, we are in the process of 
implementing an e-ticketing system that will deliver a real-time 
manifest and ultimately replace the traditional conductor's ticket 
punch with a handheld ``smart phone'' device to lift tickets 
electronically. The first phase of this system went into operation on 
the Auto-Train, where we use gate check-in, in February, and it is 
already providing us with improved customer service and manifest 
information. We expect to extend testing with the conductor handheld to 
the Downeaster service this month, followed by the Capitol Corridor in 
California. The program, which should be complete by the end of fiscal 
year 2012, will greatly improve our manifest system, make ticketing 
easier, and allow better customer service and reduced costs.
    Wi-Fi on our Acela trains, which we introduced in fiscal year 2010, 
is another such success. Conservatively we estimate Wi-Fi has delivered 
an incremental 1.5 percent improvement in Acela ridership, which 
translates into 47,000 riders and $6.5 million in incremental revenues 
in fiscal year 2011. In fiscal year 2012, we expect incremental 
ridership and revenue from Acela Wi-Fi to grow to 63,000 and $8.6 
million, respectively. Given this proven success, and working with our 
State partners, Amtrak is now in the process of extending Wi-Fi to our 
eastern and western corridor services this year. In fiscal year 2012, 
these new offerings are expected to generate an additional $13.7 
million in ticket revenue while simultaneously adding more than 250,000 
additional riders (the exact number is 280,400).
    Solutions like these are dependent on capital funding, but have 
proven themselves capable of raising revenues and improving our cost 
recovery rate. Similarly, the process of replacing outdated 
infrastructure can reduce maintenance and operating expenses, and for 
that reason, we're seeking every penny we can get so that we can 
continue to develop a more cost-efficient and effective operation.
    I understand that there will be some difficult choices this year 
and in the coming years with regard to Federal spending and the budget 
deficit. Amtrak recognizes the funding challenges and will continue to 
provide financial transparency for all of our programs so that the 
Congress and our stakeholders have the information they need regarding 
the way in which we are expending federally appropriated funds. As you 
can appreciate, continued capital funding will allow us to reduce or 
eliminate problems that translate in turn into higher levels of 
operating expense. Over the long term, an effective investment in 
capital can translate into a permanent reduction in expenses, and I 
hope the subcommittee members will consider this carefully as they 
discuss our proposed funding levels in coming months.
    Thank you and I welcome the opportunity to answer your questions.

    Senator Murray. Thank you very much.

                  RAIL SECURITY AND TERRORIST THREATS

    As has been mentioned a number of times now, we have 
discovered credible and specific documentation about al Qaeda's 
interest in launching an attack against our national rail 
network from information that was gathered at Osama bin Laden's 
compound. That information strongly suggests the administration 
become more diligent in recognizing rail transportation as a 
potential target, and we have got to take some active steps to 
secure our passengers and hazardous materials in particular.
    Mr. Boardman, can you please comment on the steps you are 
taking to protect your passengers, your partnership with DHS, 
and what financial support they provide to assist the 
corporation with its homeland security mission?
    Mr. Boardman. Yes, ma'am. We have a very strong partnership 
with DHS and TSA. My vice president for security and chief of 
police has almost a daily conversation with TSA staff in terms 
of what we can work together to do.
    Security grants since 2005 total almost $200 million, and 
we have used those for infrastructure protection--for bridges, 
for example--and also to expand our K-9 program. Our K-9 
program has grown from about 23 animals and handlers to 47 
today, and we believe that we are probably the best in the 
United States with both vapor wake dogs and with determining or 
detecting improvised explosive device (IED) explosives. Even in 
one of our recent competitions, our dogs and team handlers came 
in first, third, and fourth across the country in terms of our 
ability. We have the ability to train--and we do--every single 
day to stay at a high level of readiness with those animals and 
with their handlers.

                      OFFICE OF INSPECTOR GENERAL

    We have increased our patrols. We have had a public 
outreach program and worked diligently with DHS and the 
Secretary on ``See Something, Say Something.'' We have a 
Regional Alliance Including Local, State, and Federal Efforts 
(RAILSAFE) program, which really is a multistate and multi-
agency effort to immediately mobilize and provide assistance 
from all of the community resources that are available for 
security and enforcement. We have been able to demonstrate our 
ability to set that up in a very short period of time, as a 
matter of fact.
    We were able to help Alabama with our own mobile command 
post, and our employees in Hackleburg, Alabama, by providing 
them with assistance during the recent tornado, and we have an 
entire team of Amtrak police and security folks that provided 
that assistance.
    We work with the TSA on regular screenings on an irregular 
basis, and we are proposing today and looking at an inspector 
right-of-way patrol, some of the visible intermodal prevention 
and response (VIPR) operations, maybe even some air support on 
things that we are trying to provide across the country.
    The no-ride list issue is a very difficult one for 
everybody to deal with, especially in railroads. Railroad 
security is very different than aviation security in the sense 
of the access there is, even on the Northeast corridor. So 
often we talk about Amtrak ridership nationally being 28 
million, but every day we handle in the neighborhood of 600,000 
to 700,000 commuters on the Northeast corridor, using most of 
the facilities that we operate, handle, manage, and control. So 
we are well into the millions of ridership that depend on 
Amtrak's ability to do that job.
    Senator Murray. What about additional security checks?
    Mr. Boardman. Pardon me?
    Senator Murray. What about additional security checks?
    Mr. Boardman. Additional security checks?
    Senator Murray. Yes.
    Mr. Boardman. We have worked with especially the New York 
City police agencies to make those additional checks at Penn 
Station, and also up and down the corridor--we have many of our 
VIPR teams providing that.

                COLLABORATION WITH OTHER SECURITY FORCES

    Senator Murray. Mr. Szabo, do you want to comment on FRA's 
collaboration with Homeland Security?
    Mr. Szabo. Well, I think that President Boardman did a 
great job articulating it from an Amtrak perspective.
    From an FRA perspective, we talk at least weekly with TSA, 
who has primary jurisdiction here--more often if necessary. We 
meet with them at least quarterly, more often if necessary, to 
ensure that we have the proper level of coordination. We are 
deeply involved in the inspection and implementation of 
programs to protect hazardous material shipments and work very 
closely with TSA on that.
    I think one of the most important things we can do for the 
future is to ensure that we have appropriate funding for 
research and development (R&D). There is quite a bit that we 
can do through enhanced technology to make sure that there is 
no interference with the railroad right-of-way, to make sure 
that both passenger trains, as well as freight trains, are 
properly protected. We have got some R&D underway that I think 
would be helpful on this as far as rail detection in real time. 
But ensuring that programs like that, technologies like that 
move forward would be very important.
    We do require and regularly inspect both the rail carriers' 
and the shippers' plans for their personnel security, what 
guarantees they have to prevent unauthorized access to the 
property and their en route security plans.
    Senator Murray. Well, I appreciate the comments from both 
of you. I want to reiterate that rail security going forward is 
going to be very important. As both of you know, and we all 
know, long before potential plots were uncovered in Osama bin 
Laden's compound, security officials have been warning the 
United States that our railways were potential terrorist 
targets. They did that, in part, because we had seen attacks 
abroad, but also because there were failed attacks on our 
surface transportation systems here at home.
    The Congress passed the 9/11 Commission Implementation Act 
which required TSA to address a variety of surface 
transportation security issues, including passenger rail and 
mass transit. But unfortunately, there are many unfilled 
requirements of the act that are of concern. TSA developed 
several risk assessments to address rail and other public 
transportation at high risk of attack, but they have not done a 
comprehensive risk assessment of all modes of transportation. 
And I am concerned that TSA's security strategy for freight 
rail focuses almost exclusively on rail shipments of toxic 
inhalation hazards, despite other assessments that have 
identified potential security targets, such as tunnels and 
bridges.
    So despite nearly doubling TSA's surface transportation 
security budget, these issues do remain unaddressed and 
unanswered. In fact, a Wall Street Journal article recently 
pointed out the fact that for every $50 TSA spends on aviation 
security, the agency budgets $1 to protect surface 
transportation.
    Now, I realize that these issues are not solely under the 
jurisdiction of our witnesses today, but I do feel that they 
are very critical issues moving forward, and I want to work 
with my friend and colleague, Sue Collins--she and I wrote the 
Port Security Act--and move forward on that. And I think that 
is very important, that we really focus on this as we move 
forward, and I look forward to working with anyone who will 
work with us again to do that.
    Thank you very much. And I will turn it over to Senator 
Collins.
    Senator Collins. Thank you.

               AMTRAK RESPONSE TO AL QAEDA TERROR THREAT

    Mr. Boardman, let me just follow up on the chairman's 
questions. You mentioned--and you are exactly right--that it is 
far more challenging to deal with train security than air 
security. Air security--you can vet every passenger. The plane 
is presumably out of danger during the transit if there has 
been appropriate screening of passengers and baggage and other 
freight. But trains can be vulnerable every step of the 
journey.
    So my question to you, without asking you to disclose 
classified information, is: When you received the joint 
intelligence bulletin about the data that was confiscated in 
bin Laden's compound, what specific additional steps did you 
take to improve rail security for Amtrak? You talked about 
inspections and K-9 use, but those have been around for some 
time. What additional measures did you put in place in response 
to this intelligence?
    Mr. Boardman. I think the answer to that is that we needed 
to think about how this may happen and where it might happen, 
for example. And you have already pointed out that it could 
happen anywhere. It could happen anywhere across the country.
    So one of the things I looked at, being the former FRA 
Administrator, was to look at what does FRA and what does the 
industry have on its plate, and looking at development of the 
detection devices that we might be able to employ, using work 
already done by the FRA and industry. FRA, as was pointed out 
earlier, has been primarily a safety organization, and works on 
rail flaw detection to see where there might be a potential for 
a derailment based on some flaw in the rails that exist.
    But the technology began to come forward with ultrasonic 
testing and laser-based projection of that technology to see 
ahead of a train, to see how far ahead we could investigate 
whether a rail had the ability to sustain the train, and maybe 
even if you are looking ahead and looking at the gauge of the 
track, whether there was any widening of the gauge or narrowing 
of the gauge in some fashion. So the first real step was to 
think about what it was that we could do for the future to 
detect it through technology. And there is some potential.
    Right now, the way they are looking at it, though, is at 
speeds of 40 miles an hour. That is okay for freight, but it is 
not okay for passenger, especially for our very high-speed 
rail. There needs to be an improvement in that. There is not 
funding there to do that, and whether the capability is there 
or not, investigation funding needs to happen to see us improve 
that technology.
    The second thing was that we needed more right-of-way 
patrols that we could look at and find whether there was any 
difficulty at vulnerable locations. There have been studies in 
the past done to identify vulnerable infrastructure, at least 
in many places early on. After 9/11, we began to look and 
catalog what those vulnerable locations are so that there would 
be an increase in the number of patrols. Some of that has 
occurred. More of it needs to happen. We are working with TSA 
and DHS to find a better way to do that as well.

            PARTNERING WITH STATE AND LOCAL LAW ENFORCEMENT

    Senator Collins. One of the lessons that we have learned in 
the Homeland Security Committee is the importance of the 
partnership among all levels of government, and it occurs to me 
that given the challenge you face, in addition to looking to 
technology, maybe we should look at some sort of program like 
Operation Stonegarden, which DHS has, where the Border Patrol 
works with State, county, and local law enforcement to do 
patrols along the border. Because Federal officials, Federal 
law enforcement, Homeland Security, Amtrak officials, cannot be 
everywhere. It is simply impossible. But if in fact you tap 
into State, local and county law enforcement, it really is a 
force multiplier, and the Operation Stonegarden program has 
worked very well in that regard.
    So I would be interested in your taking a look at whether 
we should create some sort of similar program for training 
security where you can work in partnership with State, local, 
and county officials to do some of those patrols along your 
railways. I think that would be a way to expand coverage in an 
economical way. The partnership is absolutely essential if we 
are going to increase the security of our country, no matter 
the mode of transportation.
    Mr. Boardman. May I respond?
    Senator Collins. Yes, please.
    Mr. Boardman. I absolutely agree with you and I think a few 
years ago, Amtrak had lost its way in terms of what it was 
going to do for security. We now have a direction of a very 
strong relationship in community policing that begins or helps 
with the kind of thing that you are talking about, and we do 
that with RAILSAFE.
    The one caveat--and I am sure you already recognize this--
is we have to be careful with having untrained people in any 
kind of right-of-way along the railroad because of the danger 
that is involved. Even our own folks have lost their lives 
because of how quick a train is upon somebody.
    So, yes, I agree with what you are saying. Yes, I think we 
can do better and do something different, and I will talk to 
our staff about doing that. But it needs to be people that are 
knowledgeable about the environment they are in.
    Senator Collins. Thank you.
    Senator Murray. Senator Lautenberg.
    Senator Lautenberg. Thank you each for the work that you do 
and the leadership that you provide in your respective 
departments. We see really good progress being made.

                       FUNDING FOR RAIL SECURITY

    However, it is not enough. This is not a discredit to you. 
It is the fact that we are not devoting enough energy, enough 
funding, and enough attention to what the circumstances are 
with rail. Last year, we saw 700 million airline passenger 
trips on airlines, 10 billion on transit and rail trips, and 
yet we spend 98 percent of our money on aviation security and 2 
percent on rail security. And we know the risks are real. I 
mean, if we look at the experience of Madrid, London, Moscow, 
and Mumbai, we know that these are soft points for terrorists, 
and that is confirmed, obviously, by the information obtained 
as a result of the Osama bin Laden information that has come 
out.
    So we have got a job to do, and it is frustrating, and I am 
sure you feel it as we do here. Why is this subject 
overwhelming and not a place that we have to battle to get 
basic funding for these projects? The George Washington Bridge 
was built during the Depression. Jobs, and improvement in the 
future--and that is what we are looking about.
    Now, when we talk about the population growth that might 
come in 30 or 40 years, when I get there, I want to feel that 
we can travel with ease. So I would like that word of 
cooperation from you. Say: Frank, 40 years from now, when that 
population growth includes you, you will be able to move 
around.

         HIGH-SPEED RAIL INVESTMENTS IN THE NORTHEAST CORRIDOR

    But apart from that attempt at humor, I commend the 
administration for recognizing the importance of the Northeast 
corridor by awarding Amtrak nearly $500 million in high-speed 
rail funds to upgrade the corridor in New Jersey. And I ask 
specifically, Mr. Szabo, how will these funds, like the Gateway 
Tunnel, help advance the President's national high-speed rail 
plan?
    Mr. Szabo. It is about making those improvements that 
really do three things: reduce trip times, improve reliability, 
and provide for additional capacity. The improvements that were 
announced last week, particularly those investments in the 
power supply in the catenary, do all three. They have been a 
source of reliability problems historically. So we will help 
fix that problem. The new catenary is going to allow for top-
end speeds up to 160 miles per hour. And so with that, it is 
reducing trip times. And the ability to expand utilization of 
the Northeast corridor has historically been hindered because 
of the power supply. So it provides that additional power that 
will allow for future enhancements.
    I think it has to be viewed as, these are only first steps, 
but they are very, very important steps that do those three 
things: improve reliability, reduce trip times, and provide for 
additional capacity.
    Senator Lautenberg. Mr. Boardman, Amtrak included $50 
million for the Gateway Tunnel project in its budget request 
for next year. What will be the impairment of these ideas to 
the ability to develop a more reliable, higher-speed system? 
What will be the impairment if we do not build that Gateway 
Tunnel?
    Mr. Boardman. I think we are out of capacity in the 
Northeast corridor. We cannot add, especially in Penn Station. 
So we have tunnels. We have signals and approaches. We have 
power. We have nowhere to put the New Jersey Transit trains, 
for example, that come into Penn Station. Whereas the Long 
Island Railroad trains come in and go to the west side yard and 
get out of the way, we do not have an ability to find a place 
to put the New Jersey Transit trains. So capacity is really 
beginning to constrain the ability to add service, and then the 
fluidity of high-speed service. If we are really going to have 
high-speed service that works so we have 3 hours between Boston 
and Washington, DC, we need not to have New York be any more of 
a bottleneck than it already is.
    Senator Lautenberg. So that is a key item in the 
development of the high-speed system.
    Mr. Boardman. Absolutely critical.
    Senator Lautenberg. Without question, a tunnel is 
essential.
    Mr. Boardman. Yes.
    Senator Lautenberg. You know, we have had a few attempts at 
other designs and so forth, but this one, in this early stage, 
looks like it really fills the bill, will permit more Amtrak 
trains to get through on an hourly basis and improve the 
transit business, the transit opportunities as well.
    Mr. Boardman. We all work together.
    Senator Lautenberg. Thank you, Madam Chairman. I assume 
that we will have an opportunity to submit questions for the 
record.
    Senator Murray. Yes, you will have an opportunity to submit 
questions. Any member will. Thank you very much.

                HIGH-SPEED RAIL GRANT SELECTION CRITERIA

    I know that FRA has done extensive work to develop a 
commercial feasibility study for high-speed rail development, a 
strategic plan, and a progress report on the national rail 
plan. And as GAO reported recently, you have done a good job of 
developing clear application criteria and a merit-based review 
process for high-speed rail grants.
    At this point, the Congress is looking for more detailed 
information about the designated corridors, regional services, 
and emerging routes you have identified. For example, we want 
to know, where does it make sense to focus investment in the 
short and long term? What it will cost in terms of initial 
capital and operations and maintenance? And what are the 
tangible benefits that we achieve with these investments.
    Mr. Szabo, when will you have answers for this subcommittee 
on questions like that?
    Mr. Szabo. First off, let me say this. We were very pleased 
with the GAO report backing up to that. It was the first time 
in more than a decade that the term ``good'' has been used in a 
title of a GAO report. It happens once for every 12,000 reports 
that they issue. So we appreciate the fact that the vast 
majority of that report was complimentary in our selection 
process.
    You made a statement in your opening address which is 
imperative, and that is that we show that these corridors make 
economic sense. We absolutely have to provide the business case 
that shows we are not simply building high-speed rail just to 
build high-speed rail, but in fact that we are selecting 
corridors that make sense from both an economic standpoint, 
public benefit standpoint, as well as a transportation 
standpoint.
    We are in the process now of putting together both what I 
would call a broader business case that will analyze and 
quantify the broad benefits of high-speed rail for the Nation, 
and then as a second component of that, building the business 
case on the individual high-speed rail projects for the 
corridors. We intend to have information out to you in the next 
couple of months.
    Senator Murray. In the next couple months. The budget is 
not going to get any better, and we need to be able to show 
exactly what we are doing and why. So if we can get that sooner 
rather than later and have a clear idea of how you evaluate the 
public benefit for us and what those investments need to be, we 
will need this as we put this budget together.

             STATE SUPPORT FOR HIGH-SPEED RAIL INVESTMENTS

    The high-speed and intercity rail grants that have been 
awarded so far have largely supported capital projects. 
Obviously, there are costs associated with operating new rail 
services. One of the reasons that Florida and Ohio pulled out 
of the program was due to concerns by the newly elected 
Governors about the life-cycle costs for operations and 
maintenance and services.
    Can you tell us how FRA is ensuring that States will be 
capable of sustaining services from those investments?
    Mr. Szabo. Yes. First off, I think it is important to note, 
while there is a lot of chatter about the fact that three 
States chose to pull out, one of them chose to get back in and 
apply again, No. 1. And more important than that, 32 States and 
the District of Columbia and Amtrak continue to move forward 
with projects. So the vast majority of States in this Nation 
are choosing to move forward.
    To your question, first off, there is an old saying that 
the more you capitalize, the less you have to subsidize 
relative to operations. By having modern infrastructure, modern 
equipment, and a good on-time performance and frequency of 
service, you can actually drive down the operating subsidy to 
the point where in many cases, if you choose the right markets, 
you can eliminate it entirely. I think the Northeast corridor 
is a great example there, that there is the appropriate level 
of service, frequency, and reliability that allows them to 
actually generate a net operating profit.
    If you take a look at the President's fiscal year 2012 
proposal, our budget proposal, we do propose in there 
transitional assistance for the States with the understanding 
that as some of these corridors go through their initial 
startup period, it does take a period of time to grow the 
ridership. And so we are, in fact, proposing in the 2012 budget 
this transitionary help for the States, to be phased out over a 
period of time at the point that either they become self-
sustainable or at least the State knowingly went in to a 
position that they would have to cover operating support 
because of other public benefits that they are receiving.
    But that is a part of the application that we review from 
the States, their business plan, and they understand their 
commitment to have to cover the cost of operations should there 
be a deficit.

                 OVERTIME PAYMENTS TO AMTRAK EMPLOYEES

    Senator Murray. Mr. Boardman, I wanted to ask you about 
some recent criticism about Amtrak for excessive overtime 
payments to some of its employees. As we try to put together a 
bill in this very tough environment, we need to know that every 
expense is justified. So I wanted to ask you today if you can 
explain why the corporation faces those expenses, or whether or 
not it is more cost-effective than increasing the workforce and 
what steps you are taking to manage those costs.
    Mr. Boardman. Thank you. Yes, ma'am.
    The particular area of overtime costs is really on 
maintenance-of-way and the capital work that we are sustaining. 
It is not a new problem for Amtrak. It has been a series of 
problems over the years on being able to control that cost. It 
is very difficult to control initially because it requires 24 
to 30 months of training for the people that are involved to do 
the work that is expected to be done.
    It is difficult to do that planning--and I think it is part 
of what the Administrator was talking about on their proposal 
of having a different way of giving Amtrak money for the 
future--on a 12-month timetable that we operate on for our 
capital program. For example, when we got the additional ARRA 
funds, one of the things that increased the overtime cost was 
the demand to get so much of that work done as quickly as it 
needed to get done.
    But in terms of whether you hire more staff or not and take 
that couple of years to train them, the overtime is actually at 
a lower cost burden. In other words, there is about a 54 
percent or so benefit package that goes along with full-time 
employees and then the overtime. That comes down to about 18 
percent. And even though the numbers of overtime dollars look 
high--and they are--there actually would have been an overall 
higher cost if we would have been able to get people on board, 
train them, and get them working at that point in time. And 
then when the ARRA funding went away, we would have had to lay 
them off and we would not have gotten it done in the same 
period of time.
    All that being said, we were not doing as good a job 
managing the overtime as we could have with the work rules that 
were available, even though those work rules in some cases are 
not very flexible for us and so the percentage of the amount of 
overtime paid as opposed to the percentage of straight-time 
paid was escalating beyond where it should be.
    That has backed down now already with a focus on that. The 
Chief Financial Officer and the Chief Engineer have made great 
strides in making that happen. I know that has happened because 
the number of grievances has gone up among the workforce 
because of their concerns about having some of that overtime 
down.
    Senator Murray. Thank you very much. I appreciate it.
    Senator Collins.
    Senator Collins. Thank you.

                        AMTRAK OPERATING LOSSES

    Mr. Boardman, let me ask you a fundamental question. In 
your testimony, you noted that Amtrak has enjoyed 18 straight 
months of year-over-year ridership increases. Yet, as I noted 
in my opening statement, your projected deficit, your operating 
loss, for this year is actually projected to be worse than last 
year.
    So reconcile this for me. I do not understand how you can 
be serving more passengers than ever before--and it is not just 
a quick blip. It is every month for the last 18 months. So that 
presumably means you are getting more revenue and fuller trains 
by everyone's experience. So how come you are losing more 
money?
    Mr. Boardman. It is a difficult thing to understand, but I 
think I can explain it pretty well. It is the long-distance 
trains, and it is almost entirely the long-distance trains. 
There are several reasons. Wages have gone up. The fuel costs 
have gone up. The expenses for us to operate those services 
have increased. While there has been an increase in both 
revenue and ridership on the long-distance trains, it is 
nowhere near what the increase in revenue and ridership has 
been on the Northeast corridor.
    What makes it look even worse is we were able to, in the 
past, use some of the money that we received over and above the 
Northeast corridor revenues to offset and reduce the demand or 
need for long-distance train subsidy. Now it is more difficult 
because we are actually executing a fleet plan and we are using 
the potential of the revenue that is coming from the Northeast 
corridor to go to pay for the debt costs on the 70 electric 
locomotives that we purchased, which means that there is a 
greater need again on the long-distance trains.
    If the business model for long-distance trains does not 
work--and the pro-rail folks always shudder and worry and get 
very concerned when I talk like this. And that is part of what 
is necessary for this transparency, to understand that you are 
not going to cut costs far enough on the long-distance trains 
to make the long-distance trains profitable. We can cut costs. 
Food and beverage costs are continuing to be something we are 
focusing on to bring down.
    There is a fairly significant cost today, about $60 
million, that we pay the freight railroads for on-time 
performance. That needs to be adjusted. The program does not 
work in every fashion and form the way we would like it to do.
    So it becomes more a question of policy in the United 
States about whether we are going to have a border-to-border, 
coast-to-coast surface transportation connectivity in the 
United States. Forty-two percent of the disabled people that 
ride Amtrak ride the long-distance trains. The rural isolated 
are particularly dependent on the long-distance trains. And it 
is not just the long-distance trains. About $180 million worth 
of subsidy is needed for the State-supported trains because we 
have not gotten back from the States yet the amount that was 
expected in the PRIIA legislation. So, on the corridors that 
they operate, some of them are part of the long-distance 
network and some of them operate independently. But it is that 
area where there is a low density that it is difficult to 
recover those kinds of costs.
    Senator Collins. Would you consider recommending the 
termination of some of those long-distance routes that are 
unprofitable year after year?
    Mr. Boardman. They are all unprofitable. They are all 
unprofitable.
    Senator Collins. Some are more unprofitable than others.
    Mr. Boardman. And as soon as we eliminate those, there will 
then be some that are more unprofitable than the remaining 
ones. It is kind of like the old story about if you live in a 
red house and people are coming to take away the people in the 
red house, the people in the yellow house do not care until 
they come for the people in the yellow house.
    The fact is that my recommendation is we either run them or 
do not run them. But if you do not run them, the first-year 
cost--and this is a business decision--is a little more than $1 
billion because of the protections that are there for labor, 
but also putting away the equipment and protecting it and so on 
and so forth.
    We bring a huge benefit economically to the rural portions 
of the United States by having a place that people can actually 
get on a surface transportation mode of service.
    The FAA itself, the whole FAA is 50,000 people in the DOT 
out of 60,000. Fifty thousand people are paid for for the FAA 
for aviation, and about 33 percent of their salaries are 
covered back from the aviation industry. But because of the way 
that we are financed or subsidized compared to other modes, it 
does not stick out like that where we have that kind of cost.
    Senator Collins. I assume, therefore, that you are not a 
fan of former Pennsylvania Governor Ed Rendell's proposal to 
spin off the Northeast corridor into a separate public/private 
corporation because that would reduce the subsidy that you have 
available for those other lines. Is that an accurate----
    Mr. Boardman. I am not. British Rail, when they spun off, 
they went from about, let us say, $1 billion a year to about $7 
billion a year in public subsidy by the time they were done. 
And I believe that you need a connected intercity passenger 
rail service in the United States.
    Senator Collins. Thank you. I was not endorsing it. I was 
just soliciting the views of the witness.
    Madam Chairman, I am participating in the Holocaust 
Remembrance Ceremony in the Capitol which begins very shortly, 
so I am going to excuse myself. Thank you for holding this 
hearing.
    Senator Murray. You can submit all of your further 
questions for the record.
    Senator Collins. Thank you.
    Senator Murray. I just have a few more.

                FUNDING FOR AMTRAK'S CAPITAL INVESTMENTS

    Mr. Boardman, I really appreciate that Amtrak's new 
leadership has focused on strategic long-term capital planning. 
The fleet strategy is evidence of that. It describes how Amtrak 
will replace its railcars and locomotives, and I understand 
that Amtrak applied for a $563 million loan from DOT to pay for 
those 70 electric locomotives back in October 2009. However, 
FRA and Amtrak have yet to finalize the loan agreement.
    So, Mr. Szabo, can you explain why this process is taking 
so long, and when do we expect to have this agreement 
finalized?
    Mr. Szabo. We are prohibited about talking about pending 
applications, but I will say this. We are incredibly close to 
having that closed.
    Senator Murray. Incredibly close, okay.
    Amtrak is requesting $79 million to fund its fleet plan in 
fiscal year 2012, and of this, $16 million is for the first 
four installments to purchase new Acela cars along the 
Northeast corridor. I understand this investment would result 
in sufficient revenue to repay the cost of procurement by 2018.
    Mr. Boardman, why have you asked for a direct appropriation 
rather than a DOT loan for those Acela cars?
    Mr. Boardman. I do not remember. Hold on a minute.
    It is a backup plan. If we do not receive the loan, then we 
need to get the money, but we need to move forward.
    Senator Murray. Okay. So you are hoping that that is what 
happens at this point?
    Mr. Boardman. The application for the loan is not in yet, 
but we intend to.

              THE FEDERAL ROLE IN THE NATIONS RAIL SYSTEM

    Senator Murray. Mr. Szabo, at our hearing last year, you 
indicated one reason for the delay in the development of a 
national rail plan was that the Congress shaped this program as 
a State-driven process, and the FRA's 2012 budget request 
argues that there should be a stronger Federal role in the 
development of rail infrastructure than the current statutory 
framework allows.
    Can you define for us what an enhanced Federal authority 
means and how it would change FRA's relationship with the 
States?
    Mr. Szabo. Think interstate system. Frankly, this is based 
on the feedback that we received from the States and from our 
partners over the past year--the past 18 months in implementing 
this brand new program. It will always continue to be a strong 
Federal-State partnership. It is going to have to continue to 
be a strong partnership.
    But we believe, particularly when you start talking about 
the core express service--the top tier where you are talking 
150 to 220 miles per hour, because this is going to be multiple 
States, more regionally based in most every case--there needs 
to be a stronger hand in the development of those segments of 
the high-speed rail network.
    In addition, our experience in the past 18 months has shown 
us that States continue to need a much higher level of support 
from us than I think we first anticipated. A great example 
would be dealing with the freight rail industries who are the 
hosts, in many cases, for the emerging rail lines. They are 
national in scope, and so the States have been coming to us 
looking for a much stronger hand from FRA.
    You know, we have got basically 70-80 years of experience 
with the U.S. DOT and State DOTs in building highways. We have 
now got about 24 months of experience in building high-speed 
rail corridors, and clearly there is a need for a stronger 
Federal hand.

                         POSITIVE TRAIN CONTROL

    Senator Murray. I wanted to ask you about positive train 
control. The Rail Safety Improvement Act mandated it, and as we 
know, the GAO has been saying that delay risks completing the 
remaining steps necessary. Can you tell us where we are? Are we 
going to meet the 2015 deadline on positive train control?
    Mr. Szabo. It is a statutory deadline, and FRA is 
absolutely committed to ensuring that that deadline is met. And 
we do believe that it is achievable. The implementation plans 
are in from all of the carriers. Particularly for the class 1s, 
they are very, very strong. There is no question it is an 
aggressive timeline and that everything must fall into place--
--
    Senator Murray. You are not proposing any changes to----
    Mr. Szabo. We are not. We are not. Now, there is a more 
significant challenge for the commuters than there is for the 
class 1s. But, no, we believe the deadline can and should be 
met.

       AMTRAK COMPLIANCE WITH THE AMERICANS WITH DISABILITIES ACT

    Senator Murray. Mr. Boardman, I wanted to ask you about 
American with Disabilities Act (ADA) compliance. Can you 
explain to us what challenges you have been encountering and 
how those will affect Amtrak's ability to meet the ADA 
compliance targets?
    Mr. Boardman. I think the challenge, Senator, was first to 
understand what needed to be done, who owned the station, 
whether we could get agreement from either the local community 
or the freight railroad or both to get whatever it was that was 
necessary for that particular station done. All that was a 
bigger challenge than we ever really expected across the 
country, with the number of stations that we were dealing with, 
well into the hundreds--400-some-odd stations.
    But we are now making real progress, we believe, in terms 
of making that happen. And yes, because of that progress, we 
are going to meet, at least in the spirit of what needs to be 
done, our responsibilities for ADA.
    Senator Murray. Okay, thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    I do have additional questions I will submit for the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Hon. Joseph C. Szabo
            Questions Submitted by Senator Richard J. Durbin

                             ROLLING STOCK

    Question. How can this funding help bring railcar and manufacturing 
jobs to Illinois? What actions is the Federal Railroad Administration 
(FRA) taking to help bring manufacturing jobs to the United States to 
build new passenger rail rolling stock?
    Answer. The Department of Transportation (DOT) is committed to 
expanding economic activity and the jobs across the country including 
Illinois. This is a core part of our High-Speed Intercity Passenger 
Rail Program. In fact, the track work that was undertaken this summer 
between Chicago and St. Louis created a significant number of jobs in 
Illinois. While construction jobs are the most visible, new jobs are 
also created at manufacturers through supply orders; for example, track 
components for the project were made at the Nor-Trak plant in Decatur, 
Illinois. To date the Congress has committed more than $10 billion to 
developing high-speed rail. That Federal investment means many new 
orders and jobs at suppliers across the country, even in areas that 
will not see new service immediately. On the Illinois project alone, 
supplies have been produced in Arizona, Colorado, Nebraska, Nevada, 
Texas, Arkansas, and Missouri.
    With respect to passenger cars and locomotives, DOT and FRA are 
actively supporting the Administration's goal to rebuild domestic 
passenger equipment manufacturing under three initiatives:
  --Development of standard designs for the equipment so that it can be 
        used in emerging high-speed corridors nationwide. This will 
        reduce unit costs, improve maintenance and provide a 
        significant degree of flexibility to the States and Amtrak;
  --Creation of a large enough order of a single-equipment design that 
        it will attract the interest of manufacturers and create the 
        critical mass necessary to stand-up the necessary domestic 
        manufacturing facilities; and
  --Establishment of a strong Buy America program that will assure the 
        equipment and its components are manufactured in the United 
        States, not just assembled here. We will be working with the 
        Department of Commerce's Manufacturing Extension Program to 
        identify U.S. companies that can make components and 
        subcomponents for the trains of the future. Not only does this 
        provide jobs in the short-term, it helps provide U.S.-based 
        manufacturers with the incentive to build upon prior equipment 
        designs that can then result in equipment that meet both 
        domestic and international market needs.
    Year to date tangible achievements include:
  --The Section 305 Committee, which is comprised of Amtrak, the 
        States, and FRA, has already developed standard designs for 
        passenger equipment.
  --FRA grants to California and Illinois are expected to result in the 
        largest order of new intercity passenger rail equipment in a 
        generation.
  --The solicitation of proposals and contract awards for this 
        equipment will incorporate FRA's aggressive new Buy America 
        standards.
            air quality--union station and diesel emissions
    Question. What are your thoughts about creating a way for Amtrak 
some other entity to make a pool of trainsets and then allowing States 
to lease the equipment rather than have to purchase and maintain the 
equipment themselves?
    Answer. FRA is very interested in this concept and is exploring it 
within the context of the Next Generation Corridor Train Equipment Pool 
Committee established by Section 305 of the Passenger Rail Investment 
and Improvement Act of 2008 (PRIIA). FRA also awarded over $200 million 
in High-Speed Intercity Passenger Rail Program grants to Illinois to 
purchase rail cars and locomotives for a Midwest equipment pool. FRA 
requires a final equipment ownership, management, and maintenance plan 
to be developed by August 2012 that will address issues related to a 
multi-State equipment pool, in addition to many other issues. This plan 
will be developed by California, Illinois, Michigan, Missouri, and 
Washington, in collaboration with the PRIIA Section 305 Committee, and 
submitted to the FRA for prior review and approval.
    Question. Administrator Szabo, what can FRA do to help improve the 
diesel emissions of passenger trains?
    Answer. The Environmental Protection Agency regulates the emissions 
from diesel locomotives, with progressively more stringent standards 
applying to locomotives newly manufactured or remanufactured after 2004 
(tier 2), 2011 (tier 3), and 2014 (tier 4). FRA oversees and manages 
rail financial assistance programs available to States and passenger 
rail operators for investing in new technologies and systems such as 
modern and more environmentally sound locomotives.
    In addition, FRA's Research and Development Program is actively 
funding research to develop technologies to reduce diesel fuel 
emissions. Among those initiatives are:
  --Development of battery-powered locomotives;
  --Addressing improvements in clean energy storage such as advanced 
        battery and super capacitor designs; and
  --Use of biodiesel that reduces certain types of emission.
    Finally, FRA's Office of Safety is involved with Metra's working 
groups that are working to identify and address means of reducing the 
worker and public exposures to diesel exhaust in the Chicago union 
station environment.
                                 ______
                                 
             Questions Submitted to Hon. Joseph H. Boardman
               Question Submitted by Senator Patty Murray

    Question. As you know, the fiscal year 2010 conference agreement 
provided $3 million for Amtrak to deploy and study the use of human 
emulation technology on the Amtrak Web site. The subcommittee and the 
Congress agreed this technology had the potential to reduce Amtrak's 
operating costs, improve customer service over the telephone and 
online, and to provide consumers with better feedback through voice, 
text and page navigation support, as has been the case with deployment 
of such technology on private sector, transportation booking Web sites, 
among others. Furthermore, Amtrak was directed to provide a 
comprehensive report to the House and Senate Committees on 
Appropriations an evaluation of the impact of the utilization of such 
technology in achieving cost savings, and improving customer service 
and overall utilization. The deadline for this report is December 16, 
2011. The subcommittee is aware that Amtrak has initiated a request for 
information (RFI), thus, beginning this process, however, I am 
concerned that Amtrak is in danger of missing the deadline set for this 
report. Therefore, I want to take this opportunity to reiterate the 
subcommittee's interest in this subject and request that Amtrak provide 
me with a specific timeline for consideration of such technology 
improvements to the Amtrak Web site.
    Answer. Human emulation technology (HET) allows users to query an 
automated system to answer questions and/or provide issue resolution. 
It engages users through natural language dialog and has intelligence 
to understand a question and determine the correct answer with a high 
degree of accuracy. The system can deliver this cost savings by 
answering questions through automated systems and reducing call volume.
    Amtrak's exposure to this technology dates back to November 2007. 
Though still an emerging technology, HET suppliers suggested it could 
deliver a more satisfactory experience for the online customer than the 
current Web site search engine. However, internal research conducted at 
that time surfaced limitations including prohibitive costs, unknown 
benefits and an immature, untested technology. As a result, Amtrak 
initially deferred exploration of HET.
    In August 2010, Amtrak found that the technology had matured and 
undertook a 5-month pilot program with an external vendor. As this 
trial found mixed results, Amtrak subsequently issued an RFI to gain 
more industry insights, including into functionality it was not able to 
explore during the pilot. The resulting 3-month review allowed Amtrak 
to evaluate four potential solutions. The two highest-scoring vendors 
presented in-depth presentations of their technology. It was concluded 
from the RFI that this technology continued to improve and had the 
potential to be a worthwhile investment for Amtrak both in terms of 
customer service and cost savings. The team subsequently began 
developing a request for proposals (RFP).
    Presently, the RFP has been finalized and is scheduled to be issued 
in late August. Assuming bids can meet RFP goals within a reasonable 
cost, Amtrak anticipates awarding the contract in October or November 
and is targeting completing full implementation in late summer 2012.
    The following timeline outlines in more detail the history and 
actions Amtrak has taken in regard to HET.

                                TIMELINE

November 2007
    Amtrak was introduced to HET technology, and though it appeared 
promising, the cost of the solution was priced as a function of usage, 
exposing Amtrak to unknown costs. As the technology was new, the value 
to our customers and contribution to the bottom line were unclear.
June 2010
    Amtrak issued a request to implement a proof-of-concept trial 
recognizing that this technology was still emerging and questions 
remained about its efficacy with customers. One vendor offered a unique 
product and was willing to test the solution with us. Conditionally, if 
the trial proved promising and Amtrak wished to pursue this further, 
the solution would be put out for competitive bidding.

June 29, 2010
    Amtrak representatives met with Senator Murray's staff to discuss 
HET. The group agreed that Amtrak would:
  --Explore the technology further to more accurately assess the value, 
        including through results from the pilot program; and
  --Assuming the pilot proved that the technology was worthwhile, 
        solicit an expanded program through a competitive bid process 
        (per Amtrak's internal procurement policy).
    The amount of money required to support this program was not yet 
known, but was expected to be within $3 million.

August 2010 to January 2011
    In August 2010, Amtrak began a pilot program to test the value of 
HET. The pilot program ended with generally favorable results, though 
results were limited to qualitative findings and it was not possible to 
quantitatively demonstrate changes in customer handling costs. Based on 
these findings, Amtrak began the procurement process through 
development of an RFI. An RFI was then issued at the beginning of 
January 2011. The goal of the RFI was to learn more and to improve the 
team's confidence in the application's potential benefits.

February to March 2011
    RFI responses were received in February. The RFI evaluation 
committee reviewed and scored the four submissions, and then asked for 
demonstrations from the top two vendors. Both vendors showed strong 
expertise in a key factor for evaluation: enterprise-wide (multi-
channel) support.

April 2011
    Vendor presentations concluded and the team determined that this 
technology had the potential to be a worthwhile investment for Amtrak 
both in terms of customer service and cost savings. Beyond customer 
handling savings, the team came to understand that there could also be 
efficiencies in reducing content management costs. As the HET interface 
would allow companies to manage/modify their enterprise-wide content 
from a single source, for example, it mitigates the expense of placing 
all relevant content in one place.

May 2011
    An interdepartmental Amtrak team agreed to move forward and issue 
an RFP; Amtrak's Finance Department agreed funding would be available 
through fiscal year 2012 (until the project's completion).

July 2011-Forward
    The RFP was finalized. Procurement is expected to issue the RFP in 
August and to award the contract in October/November. Work is expected 
to be completed by late summer 2012.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                             ROLLING STOCK

    Question. President Boardman, States across the country are 
expanding passenger rail service. For example, in Illinois we are 
adding new routes from Chicago to the Quad Cities and Rockford. 
However, the trains running in the Midwest now are very old and seem to 
breakdown more frequently.
    Does Amtrak currently have enough equipment to serve these new 
routes? Are there other areas across the country where there is an 
equipment shortage?
    Answer. Amtrak's existing fleet of aged equipment is experiencing 
very high levels of utilization across the country, and we currently 
have very little spare equipment that can be used on new routes.
    Recently announced Federal grants will support the procurement of 
new equipment to be used throughout the Midwest States and California. 
This equipment will replace some of the older, less reliable equipment 
Amtrak operates, as well as provide capacity for planned new and 
expanded services. The State of Washington has also received Federal 
funds to procure equipment necessary for additional service once 
infrastructure improvements are completed.
    Amtrak continues to experience unprecedented ridership growth that 
is expected to continue into the future. Without new equipment, 
capacity issues will likely be experienced on many routes throughout 
the country. Additionally, managing growth with the aging profile of 
our current fleet will be more difficult that it would otherwise be 
with modern equipment. In order to meet the increasing demands for new 
services and to increase the efficiency and reliability of existing 
services, obsolete and costly to maintain equipment must be 
systematically replaced, as outlined in Amtrak's Fleet Strategy Plan. 
To execute this plan, additional investment in equipment beyond the 
scope of the recent Federal grants will be necessary.

            AIR QUALITY--UNION STATION AND DIESEL EMISSIONS

    Question. Last fall, the Chicago Tribune conducted an investigative 
report showing Metra commuters and workers may be exposed to 
excessively high levels of diesel soot. The Tribune found dangerous 
levels of particulates in both the train cabins and in Union Station in 
Chicago. The Tribune's studies show the increased levels of air 
pollution are the result of Metra and Amtrak's aging locomotives.
    Mr. Boardman, what can Amtrak do to help clean up the air quality 
in and around Union Station?
    Answer. Results from Amtrak industrial hygiene surveys indicate 
that the operating areas of Chicago Union Station are below 
Occupational Safety and Health Administration standards for air 
contaminant exposure, including particulate concentrations. However, 
further reducing exposure is important to Amtrak passengers and 
employees, and there are a number of measures that could improve the 
current situation.
    For one, upgrading Amtrak's diesel locomotive fleet could certainly 
improve air quality in and around Union Station. Amtrak's current 
diesel locomotive fleet meets Environmental Protection Agency tier 0 
emissions standards. Tier 4 emissions standards, which will have to be 
met by 2015, are expected to reduce particulate matter emissions by 95 
percent.
    The Next Generation Corridor Equipment Pool Committee developed a 
specification for a new high-speed diesel locomotive that will be 
compliant with tier 4 requirements. Additionally, Amtrak's Fleet 
Strategy Plan contemplates a large number of diesel locomotives being 
delivered in 2015. Combining Amtrak's diesel locomotive requirements 
with those of the States would make for a substantially larger and more 
cost-effective procurement of lower-emission, tier 4-compliant 
locomotives.
    In addition to procuring new locomotives, plugging locomotives 
waiting at the station into 480-volt ground power sources would reduce 
idling and associated diesel emissions.
    Further, for the holders of air rights above Chicago Union Station, 
there is semiannual testing of their station-area fan equipment. The 
results of these tests are used as a tool to monitor compliance with 
the building owner's responsibility for maintaining their exhaust 
equipment. This testing is performed in the spring and fall. A system 
to check that the ventilation systems are operating continuously would 
be helpful as a monitoring tool.
    Amtrak is also undertaking a study for concept-level design of an 
improved ventilation system at the station. We expect this study to 
begin shortly and be completed during fiscal year 2012 or fiscal year 
2013, subject to available funding.
                                 ______
                                 

                         CONCLUSION OF HEARINGS

    Senator Murray. I appreciate both of your testimonies 
today, and I just want to reiterate that safety is a concern to 
everyone, as we all know, and I look forward to working with 
you as a number of proposals come forward on the safety and 
security of our national railway systems. Thank you very much.
    [Whereupon, at 11:30 a.m., Tuesday, May 17, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
